Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  International Merchant Purchase
    Authorization Card Program:
      Review of Calendar Year
         2001 Transactions




                    JANET REHNQUIST
                     Inspector General

                       MARCH 2003
                      OEI-07-02-00510
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE SUMMARY

PURPOSE

          To determine whether Department of Health and Human Services’ (HHS) employees properly
          used the International Merchant Purchase Authorization Card (IMPAC), and whether
          employees properly followed the HHS guidelines and agency procedures.

BACKGROUND

          The IMPAC program was introduced to save the government money by avoiding costly
          paperwork and to speed the process of making purchases. In June 2002, HHS had
          8,909 open IMPAC purchase card accounts. Cardholders made 654,322 purchases in
          calendar year (CY) 2001, spending more than $321 million.

          When the IMPAC program came into effect, the HHS issued guidelines for the respective
          agencies to use in developing their individual operating procedures. Core areas within the HHS
          guidelines include card issuance, card limits, training, written procedures, card security, record
          keeping, and acquisition. Agency procedures should be no less restrictive than the HHS
          guidelines.

          The Inspector General for HHS testified on April 30, 2002, before the House Energy and
          Commerce Committee, Subcommittee on Oversight and Investigations. In that testimony, the
          Inspector General noted concerns with the IMPAC program and card usage, and identified
          current and future work on the part of the Office of Inspector General (OIG) designed to
          protect HHS against misuse.

          We selected a stratified random sample of 400 transactions from all transactions that occurred
          during CY 2001. We requested and reviewed agency-specific procedures to identify key
          internal controls, and used these procedures to determine compliance based on documentation
          collected from cardholders and approving officials for the sampled transactions. We received a
          file of all cardholders and approving officials as of June 2002, and analyzed this file to identify
          vulnerabilities related to cards, cardholders, and approving officials.

FINDINGS

Although We Did Not Identify Any Transactions That Clearly Indicated Misuse or
Purchases Converted to Personal Use, 44 Percent of Transactions Did Not Fully
Comply With Requirements for Using the IMPAC Purchase Card

          Based on our stratified random sample of 400 transactions, we did not identify any that clearly
          indicated misuse on the part of cardholders and approving officials, or purchases


IMPAC: Review of 2001 Transactions                     i                                        OEI-07-02-00510
          converted to personal use. However, 166 transactions did not fully comply with the HHS
          guidelines and agency procedures for using the IMPAC purchase card. This number projects
          to 44 percent of all transactions, accounting for $127 million of the $321 million purchased in
          CY 2001. Because some of these transactions contain more than 1 problem, the sum of
          percentages for these 3 types do not total 44 percent. Approximately 38 percent lacked
          documentation of approving official review, 8 percent lacked sufficient purchase
          documentation, and 7 percent did not document the associated object class code.

Additional Control Weaknesses Increase the Risk of Improprieties

          Although internal agency procedures are in place governing card usage, issues related to the
          cards themselves came to light through an examination of the file of all IMPAC accounts
          “open,” as of June 2002.

          These issues, along with selected examples, include:

          •	        open accounts that should be closed – 1,390 cards were reported lost or had expired,
                    yet these accounts remained open on U.S. Bank’s file;

          •         infrequent card usage – 790 of 6,823 accounts had no activity during CY 2001;

          •	        agencies failing to set reasonable card limits – the HHS had at least $2.4 billion in
                    available “credit” during CY 2001, yet made only $321 million in purchases;

          •	        relationships of cardholders to approving officials – 7 accounts have the cardholder and
                    approving official listed as the same person;

          •	        span of control of approving officials – 19 percent of approving officials have
                    responsibility for 5 or more accounts; and

          •	        approving officials and cardholders not collocated – 17 percent of accounts have
                    approving officials with different zip codes in their mailing addresses than the
                    corresponding cardholders.

          As these concerns persist, the IMPAC program remains vulnerable to misuse.

Cardholder and Approving Official Actions Demonstrate a Lack of Understanding
of Agency Procedures and the Need for Updated and Enhanced Training

          Although the HHS guidelines and agency-specific procedures require training, cardholders’ and
          approving officials’ actions demonstrate a lack of understanding in properly controlling and
          safeguarding cards. Specific examples from our sample of 400 transactions include:




IMPAC: Review of 2001 Transactions                       ii                                        OEI-07-02-00510
          •	        31 percent of cardholders produced their cards from their personal wallets, despite the
                    HHS guidelines, which recommend that cardholders keep cards in locked locations
                    when not in use, and 1 cardholder could not find his card;

          •	        23 percent of cardholders had not signed their cards, increasing the ease with which
                    another person could use the card, if lost or stolen; and

          •	        1 office maintained a listing of card numbers in an electronic file so that any cardholder
                    in the office could use any other card if he or she reached the 30-day limit on his/her
                    card, and 1 cardholder had given the card to another individual, despite the HHS
                    guidelines and agency procedures, which specifically prohibit use of a card by anyone
                    other than the authorized cardholder.

CONCLUSION AND RECOMMENDATIONS

          Although we did not identify any transactions that clearly indicated misuse on the part of
          cardholders and approving officials, or purchases converted to personal use, issues related to
          documentation, or the lack thereof, and the failure to follow internal controls did raise concerns.
          Our review of the cardholder file from U.S. Bank raised issues with cards and cardholders,
          such as unused accounts and questionable card limits. Finally, cardholders’ and approving
          officials’ actions demonstrate a lack of understanding of agency procedures and the need for
          updated and enhanced training.

          Therefore, we recommend that the Office of the Assistant Secretary for Administration and
          Management, working through agency program coordinators:

          •	        Ensure that cardholders, approving officials, and agencies are in full compliance with the
                    guidelines established,
          •         Develop guidance where none currently exists, and
          •         Provide periodic targeted training for current cardholders and approving officials.

AGENCY COMMENTS

          The draft of this report was reviewed by the Office of the Assistant Secretary for
          Administration and Management (ASAM). In its response, ASAM noted that it received input
          from the General Accounting Office and the Office of Management and Budget (OMB) that
          emphasized findings in our report. The ASAM noted that it will work with OMB to improve
          internal controls highlighted in our report.

          The ASAM did state that the OIG may have drawn an “incorrect inference from the vendor’s
          (US Bank) use of non-standard terminology.” More specifically, the OIG failed to note that
          “open” accounts reported lost or stolen do not create a risk because they have been
          deactivated. Although it is true that we did not identify purchases associated with the cards we
          identified as lost or stolen, we chose to include the information because we had requested a file
          of “open” accounts, expecting to receive only open, active accounts.

IMPAC: Review of 2001 Transactions                      iii                                        OEI-07-02-00510
          Instead, we received a file containing large numbers of inactive accounts. We believe this could
          create difficulties in successfully managing the IMPAC program within HHS. Agency program
          coordinators, with whom we spoke, expressed frustration with their attempts to “clean up” their
          cardholder accounts, only to see accounts they attempted to get closed continue to show up on
          “open” account reports. We have revised the report to help clarify this point. The full text of
          ASAM’s comments can be found in Appendix D.




IMPAC: Review of 2001 Transactions                   iv                                       OEI-07-02-00510
                              TABLE OF CONTENTS

                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Documentation and Internal Control Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Additional Control Weaknesses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Lack of Understanding of Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


CONCLUSION AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


          A: Confidence Intervals for Key Estimates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B: Matrix of Transactions with Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          C: Overview of Guidelines and Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                                     INTRODUCTION

PURPOSE

          To determine whether Department of Health and Human Services’ (HHS) employees properly
          used the International Merchant Purchase Authorization Card (IMPAC), and whether
          employees properly followed the HHS guidelines and agency procedures.

BACKGROUND

          The IMPAC program was introduced to save the government money by avoiding costly
          paperwork and to speed the process of making purchases. In June 2002, the HHS had 8,909
          open IMPAC purchase card accounts. Cardholders used the IMPAC purchase cards and
          checks (a feature of the program that allows cardholders to write a check against the IMPAC
          purchase card account when individuals or entities do not accept purchase cards) to make
          654,322 purchases in calendar year (CY) 2001, spending more than $321 million.

          To protect against unauthorized or fraudulent use of purchase cards, the Treasury Financial
          Manual, Vol. 1, Part 4, Section 4525 requires that each agency has its own internal
          procedures for using purchase cards. When the IMPAC program came into effect, the HHS
          issued guidelines for the respective agencies to use in developing their individual operating
          procedures. Core areas within the HHS guidelines included card issuance, card limits, training,
          written procedures, card security, record keeping, and acquisition. Agency procedures should
          be no less restrictive than the HHS guidelines.

          Nine agencies within the HHS have IMPAC program coordinators and have issued procedures
          governing card usage. These agencies are the Agency for Healthcare Research and Quality,
          Centers for Disease Control and Prevention, Centers for Medicare & Medicaid Services, Food
          and Drug Administration, Health Resources and Services Administration, Indian Health
          Service, National Institutes of Health, Program Support Center (PSC), and the Substance
          Abuse and Mental Health Services Administration. Smaller agencies or offices that do not have
          their own program coordinators, such as the Office of Inspector General (OIG), receive their
          cards through the PSC.

          The Inspector General for HHS testified on April 30, 2002, before the House Energy and
          Commerce Committee, Subcommittee on Oversight and Investigations. In that testimony, the
          Inspector General noted concerns with the IMPAC program and card usage, and identified
          current and future work on the part of the OIG designed to protect the HHS against
          unauthorized or questionable activity. As part of the current work, the OIG’s Office of
          Investigations (OI) has received from U.S. Bank (the vendor for the HHS IMPAC purchase
          card program) information for all transactions dating back to




IMPAC: Review of 2001 Transactions                   1                                        OEI-07-02-00510
          November 1999. The OI electronically reviews the data to identify potentially questionable
          purchases. These purchases are forwarded to the cognizant agency for their review; the
          agencies return the results to OI for appropriate action.

METHODOLOGY

          The OIG’s Office of Evaluation and Inspections (OEI) obtained data from OIG/OI for all HHS
          IMPAC card transactions occurring between November 1999 and April 2002. Using this file,
          we identified all transactions that occurred during CY 2001. There were 654,322 transactions
          that met this criteria. We excluded from the population transactions of $5 or less, due to the
          low risk to the HHS associated with these purchases (8,426 transactions in CY 2001 totaling
          $28,748). We also attempted to exclude all New York-based hotel expenditures (34
          transactions totaling $2.8 million) that were used for continuity of operations following
          September 11, 2001, due to the potential sensitivity related to these transactions and because
          normal restrictions for use of credit cards were temporarily not in effect to accommodate these
          types of transactions. We did not exclude transactions for other types of purchases (e.g.,
          security services, communication equipment) that occurred because of operational changes
          after September 11, 2001. From the remaining transactions, we selected a stratified random
          sample of 400. A description of the 5 strata with their population, corresponding dollar
          amounts, and sample size are shown in Table 1 below.

                                      Table 1: Stratified Sample of Transactions

                                                  Number of
                                                                         Dollar Amount of
                 Purchase Amount                 Transactions                                     Sample Size
                                                                           Transactions
                                                  (CY 2001)
               $25,000 or more                                    159             $7,873,071                     50
               $10,000 to less than                                              $18,363,580                     50
                                                                 1,163
               $25,000
               $2,500 to less than                                               $45,284,615                    100
                                                                10,112
               $10,000
               $500 to less than                                                $167,850,785                    100
                                                               151,206
               $2,500
               Greater than $5 to less                                           $79,361,431                    100
                                                               483,222
               than $500
               Totals                                         645,862*          $318,733,482                    400

                    *Total excludes transactions of $5 or less and hotels related to continuity of operations
                    post September 11, 2001.




IMPAC: Review of 2001 Transactions                        2                                           OEI-07-02-00510
          For 375 of the 400 transactions, we met with the cardholder, approving official, and/or acting
          or designated officials.1 We collected from them all documentation supporting the transaction
          that was maintained in the cardholder or approving official’s files. For the remaining 25
          transactions, we requested that documentation be submitted via mail or fax because the
          locations of the cardholders and approving officials were remote, making the costs associated
          with travel to the locations greater than the risk associated with not making on-site visits.

          For each transaction, information that we requested included, but was not limited to, receipts,
          orders, invoices, or packing slips; the object class code associated with the item; proof of
          approving official review and approval; inventory control and transferred/excessed forms (if
          appropriate); and evidence of bids, sole source, or the existence of a master contract for
          purchases exceeding $2,500. Whenever possible and appropriate, we matched equipment
          (e.g., computers, fax machines) against the inventory control forms. We also checked where
          cardholders maintained their cards and whether the cards were signed, the training status of
          cardholders and approving officials, and whether cardholders or approving officials had in their
          possession their agency’s IMPAC procedures. Finally, we had the cardholder, approving
          official, and/or acting or designated officials sign an attestation verifying that the information we
          received was complete and accurate.

          We sought to collect only those documents maintained in the cardholder and approving official
          files, based on agency procedures that require cardholders and approving officials to maintain
          documents to support each individual transaction. Therefore, we did not seek documents at
          off-site locations, although we did allow approving officials and cardholders to fax
          documentation to us for one week following on-site fieldwork. Documents were faxed to us for
          10 percent (37 of 375) of the sampled transactions. Fieldwork was conducted between July
          17 and August 23, 2002.

          We requested and received from the nine aforementioned agencies their current IMPAC
          procedures. We reviewed these procedures to identify key internal controls, and compared
          these procedures against the HHS guidelines and across agencies. We used the identified
          controls as the basis of reviewing the sampled transactions. For each transaction, we made a
          determination of whether documentation was maintained to support the purchase and whether
          there was a failure to comply with internal controls (e.g., no proof of approving official review,
          object class code not maintained). Confidence intervals for key estimates can be found in
          Appendix A of this report.

          We requested from U.S. Bank a listing of all “open” accounts as of June 2002. This file
          contained 8,909 records, with fields identifying the cardholder and address; approving official
          and address; dates issued, returned, and expired (if appropriate); and limits on




          1
           Some cardholders and approving officials were not available when we were scheduled to visit their
location. We made arrangements for someone to act on the cardholder or approving official’s behalf and to provide
access to and certify the information we required.

IMPAC: Review of 2001 Transactions                             3                                                    OEI-07-02-00510
          card usage, including single-purchase and 30-day limits. We used this file to review various
          aspects related to the cards, and the cardholders and approving officials. We also matched the
          file to our transaction file to determine card usage as well as to determine the cardholder and
          approving official associated with each sampled transaction.

          This inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




IMPAC: Review of 2001 Transactions                   4                                       OEI-07-02-00510
                                         FINDINGS

          Based on our stratified random sample of 400 transactions and the documentation we received
          from cardholders and approving officials supporting these transactions, we did not identify any
          transactions that clearly indicated misuse on the part of cardholders and approving officials, or
          purchases converted to personal use. However, we did find significant noncompliance with the
          HHS guidelines and agency procedures regarding (1) approving official review, (2) purchase
          documentation, and (3) object class codes. In addition, our review of the cardholder file from
          U.S. Bank disclosed internal control weaknesses, such as unused accounts and questionable
          card limits, which increase the risk of improprieties. Finally, although guidelines and procedures
          require cardholders and approving officials to receive training, cardholder and approving official
          noncompliance with the HHS guidelines and agency procedures demonstrate a lack of
          understanding of these policies and the need for updated and enhanced training.

Although We Did Not Identify Any Transactions That Clearly
Indicated Misuse or Purchases Converted to Personal Use, 44
Percent of Transactions Did Not Fully Comply With
Requirements for Using the IMPAC Purchase Card

          One hundred sixty-six of the 400 sampled transactions did not fully comply with requirements
          for using the IMPAC purchase card, as described in the HHS guidelines and agency
          procedures. This number projects to 44 percent of all transactions, accounting for $127 million
          of the $321 million purchased in CY 2001. Three types of problems comprise the 44 percent
          projection, including (1) no evidence of approving official review, (2) lack of purchase
          documentation, and (3) failure to record object class codes. Because some of these
          transactions contain more than 1 problem, the sum of percentages for these 3 types do not total
          44 percent. Table 2 on the following page summarizes these problems, while Appendix B
          provides breakdowns of problem types for each transaction.




IMPAC: Review of 2001 Transactions                    5                                        OEI-07-02-00510
                            Table 2: Breakdowns of Transactions with Problems

                                                                                              Projected
                                                        Number of
                                                                             Percent of       Purchase
                              Reason                   Transactions/
                                                                             Universe          Amount
                                                         Problems
                                                                                              (Millions)

           No evidence of approving official
                                                                    125              38%               $97
           review

           Insufficient purchase documentation                         65              8%              $46

           Failure to record object class code                         28              7%              $22

                                                          218 problems
           Total of transactions which do not
                                                            across 166               44%              $127
           fully comply with requirements
                                                           transactions


          Agency procedures require cardholders and approving officials to maintain documents to
          support purchases and demonstrate compliance with internal controls. We gathered available
          documents (mostly through on-site visits) and reviewed these documents to determine whether
          procedures were followed. An overview of guidelines and procedures for IMPAC transactions
          can be found in Appendix C.

Approximately 38 percent of transactions had no evidence of approving official
review

          The HHS guidelines describe the need for approving officials to review accounts prior to
          forwarding information to their respective finance offices for payment. Agency procedures
          provide greater specificity on (1) what approving officials must do – reviewing invoices,
          packing slips, or other appropriate purchase documentation – and (2) how they must do it –
          signing the bottom of card statements or, more recently, using electronic automated systems to
          document review.

          Cardholders or approving officials either did not obtain or maintain evidence of approving
          official review for 125 of the 400 transactions. This number projects to 38 percent of all
          transactions, accounting for $97 million in purchases. Some cardholders claimed approving
          official review had occurred, but we could not find anything to support these claims within the
          cardholder or approving official files, and cardholders and approving officials did not supply
          any additional documentation via fax after completion of our site visits. Cardholders and/or
          approving officials did sign attestations indicating that the information we received at the
          completion of our fieldwork was complete and accurate.




IMPAC: Review of 2001 Transactions                    6                                        OEI-07-02-00510
Approximately 8 percent of transactions had insufficient purchase documentation

          The HHS guidelines indicate the need to maintain a paper trail “ . . . that will support all
          purchases and be available to anyone auditing the process.” Agency procedures support this
          guideline by requiring cardholders or approving officials to obtain charge slips, cash register
          receipts, packing slips, or invoices, or to include a statement in the files as to why such
          documentation does not exist and what steps were taken to collect the missing documentation.

          Sixty-five of the 400 transactions had insufficient purchase documentation. This number
          projects to 8 percent of all transactions, accounting for $46 million in purchases. For 51 of
          these transactions, there was no invoice or receipt. For 12 transactions, the invoice amount did
          not equal the transaction amount. For 2 transactions, we could not determine if credits for
          disputed transactions were ever received.

          Due to the seriousness of problems for 30 of the transactions with documentation problems, we
          re-contacted the cardholders and approving officials and requested additional documentation.
          More than half could not or did not supply any additional documentation. Of those that did,
          some still could not fully support the transaction, and one supplied information indicating that the
          purchase was split between two cardholders to circumvent single-purchase limits.2 We have
          referred several transactions for further development and/or investigation.

Approximately 7 percent of transactions did not have a recorded object class
code

          The HHS guidelines state that “The individual card holder must write the CAN [Common
          Accounting Number] and object class on the Statement of Account as appropriate, and the
          approving official must also verify this information.” All agency procedures echoed the need to
          document the object class code.

          Cardholders did not maintain the object class code for 28 of the 400 sampled transactions, or 7
          percent when projected to the universe, accounting for $22 million in purchases. The object
          class code is an accounting code, which is used to classify expenditures to maintain budgetary
          control and report expenditures to the Office of Management and Budget. We did not trace
          these transactions to final accounting records to determine whether the transactions were
          properly classified. Our objective was to determine whether the




          2
             Agency procedures clearly prohibit cardholders from splitting purchases to avoid purchase limits. We
purposively selected 16 attempted transactions that would have exceeded the account’s single-purchase limit as
further evidence of efforts to circumvent limits. We identified all transactions that each of the 16 cardholders made,
and then, for each cardholder, searched for purchases on the same day or within a few days of the declined
transaction. Six of the 16 had 2 or 3 purchases that, when added, matched the amount of the declined transaction.
One cardholder, with a $25,000 single-purchase limit, split a $36,450 transaction into two transactions – $18,225 each
– after having the original transaction declined.



IMPAC: Review of 2001 Transactions                              7                                                 OEI-07-02-00510
          cardholder documented the object class code as the HHS guidelines and agency procedures
          require.

Additional Control Weaknesses Increase the Risk of
Improprieties

          In addition to our work on the sampled transactions, we expanded our review to include
          analyses of accounts listed as open to identify additional vulnerabilities. Because agencies could
          not adequately provide us with a listing of all “open” IMPAC accounts, we requested such a
          listing from U.S. Bank. The file we received contained all the HHS accounts with the status
          listed as “open” as of June 2002. Additional vulnerabilities that could place the HHS at risk of
          misuse include the following:

          •         coding 1,390 accounts as open that should be closed,
          •         maintaining infrequently used cards,
          •         setting extreme 30-day limits, ranging up to $2 million, and
          •	        having approving officials responsible for an excessive number of accounts and allowing
                    circumstances that compromise the independence of approving official review.

          As these concerns persist, the IMPAC program remains vulnerable to questionable, fraudulent,
          and unsupported purchases, and overall misuse.

Approximately 16 percent of open accounts should be closed

          A review of the file from U.S. Bank revealed that 1,374 cards were reported lost, although the
          account status remained open. An additional 16 accounts had expiration dates that made the
          accounts inactive, yet, again, the status on the accounts remained “open.”

          Although no account activity was associated with any of these 1,390 accounts, they do increase
          the administrative burden associated with managing the IMPAC program. Several of the
          program coordinators throughout the HHS indicated they report to U.S. Bank when accounts
          should be closed. However, the coordinators claim that these accounts frequently remained in
          an “open” status when the coordinators received updated statements of open accounts. They
          were left to make additional contacts to U.S. Bank to attempt to resolve the matter.

More than one-fifth of cards are being used infrequently

          Using the U.S. Bank file, we identified 6,823 accounts that were “active” throughout 

          CY 2001. We arrived at this number by taking the file of “open” accounts from U.S. Bank and

          excluding all cards reported lost or with expiration dates prior to 2001, or with dates indicating

          accounts opened in 2002.





IMPAC: Review of 2001 Transactions                     8                                        OEI-07-02-00510
          Of the 6,823 accounts active throughout CY 2001, 790 had no transaction activity during the
          entire year. Approximately 22 percent (1,491) of all accounts had fewer than 6 total
          transactions – less than 1 transaction every 2 months – during 2001. Cardholders may be less
          likely to notice that a card is lost or stolen if it is used infrequently.

          At the other extreme, 3 percent (179) had more than 500 transactions during the year. The
          highest number of transactions was 2,650, which averages out to more than 7 transactions a
          day for every day of CY 2001. Table 3 below summarizes transactional activity for all
          accounts open throughout CY 2001.

                                Table 3: Number of Transactions Associated with
                                     Accounts Active Throughout CY 2001

                               Number of
                             Transactions per        Number of
                                                                                Percent
                             Account During          Accounts
                                CY 2001

                         0                                   790                      11.6%

                         1                                   194                       2.8%

                         2-6                                 627                       9.2%

                         7-12                                555                       8.1%

                         13-24                               901                      13.2%

                         25-48                             1,228                      18.0%

                         49-100                            1,252                      18.4%

                         101-1,000                         1,218                      17.8%

                         1,001-2,000                          52                       0.8%

                         Greater Than 2,000                    6                       0.1%

                         Total                             6,823                    100.0%


Agencies fail to set reasonable card limits

          The HHS guidelines instruct agencies to establish card limits in relation to the bona fide needs of
          the office involved, consistent with sound management and oversight. In addition, limits should
          be as realistic as possible and tied into the office’s budget and operating plan. Limits help
          protect the office or agency against financial loss if the cardholder or another individual uses the
          card improperly.

          In CY 2001, the HHS had at least $2.4 billion in available “credit” to make purchases with the
          IMPAC cards. We computed this figure by multiplying all available 30-day


IMPAC: Review of 2001 Transactions                     9                                         OEI-07-02-00510
          limits for the 6,823 accounts “open” throughout CY 2001 by 12 months. The extreme 30-day
          limit was $2 million, with two cardholders having this limit. It bears repeating that the HHS
          used cards to make approximately $321 million in purchases in CY 2001, meaning that
          cardholders used less than 14 percent of available limits for purchases. Table 4 on the next
          page summarizes 30-day limits for cards active throughout CY 2001.

                                        Table 4: Summary of 30-day Limits
                                     for Accounts Active Throughout CY 2001

                                                             Number of
                              30-day Limit                                                  Percent
                                                             Accounts

                         $100 to $2,500                              819                            12.0%

                         Greater than $2,500
                                                                   1,168                            17.1%
                         to $5,000

                         Greater than $5,000
                                                                   2,067                            30.3%
                         to $10,000

                         Greater than $10,000
                                                                   1,719                            25.2%
                         to $25,000

                         Greater than $25,000
                                                                     491                             7.2%
                         to $50,000

                         Greater than $50,000
                                                                     321                             4.7%
                         to $100,000

                         Greater than
                                                                     238                             3.5%
                         $100,000

                         Total                                     6,823                          100.0%


          As further evidence that agencies set questionable limits:

          •	        54 accounts (0.8 percent) active throughout CY 2001 had single-purchase limits that
                    were greater than the 30-day limits;3

          •	        Cardholders for 133 accounts (1.9 percent) would need to make 50 or more
                    purchases a month to reach the 30-day limit, assuming each purchase was the maximum
                    allowable single-purchase amount; and




          3
            A program coordinator informed us that the agency uses default single-purchase limits and sets 30-day
limits, based on office needs. This explanation may explain why some single-purchase limits fall below the 30-day
limit.

IMPAC: Review of 2001 Transactions                            10                                                    OEI-07-02-00510
          •	        28 accounts had a single-purchase limit of $1.4 The cardholder for one such account
                    attempted to make 66 purchases during the first quarter (January through March) of
                    2002, all of which were denied. The limit remained at $1 at the time we received the
                    cardholder file in June 2002.

Specific guidelines and procedures do not address potential vulnerabilities
related to cardholders and approving officials

          The HHS guidelines and agency procedures do not specifically address many situations related
          to cardholders and approving officials, including who can act as an approving official for whom,
          the span of control for approving officials, and the location of cardholders relative to approving
          officials. Our review of the file of accounts active throughout CY 2001 revealed the following
          situations:

          •	        7 accounts list the same individual as cardholder and approving official – since none of
                    these accounts were in our sample, we cannot say whether these cardholders are
                    actually approving their own transactions;

          •	        For 29 accounts, cardholders and approving officials have reversed relationships on
                    another 29 accounts (i.e., individual A is the cardholder and individual B is the
                    approving official on one account, while individual A is the approving official and
                    individual B is the cardholder on another account) – the nature of reversed relationships
                    on accounts may present an environment for misuse;

          •	        378 approving officials have responsibility for 5 or more accounts, while the extreme is
                    1 approving official responsible for 72 accounts – we question the extent of transaction
                    approvals for approving officials with many accounts to manage; and

          •	        1,193 cardholders had mailing addresses in ZIP codes different from the ZIP codes
                    listed for the approving official, with the extreme being 2,770 miles between the address
                    for the cardholder and the approving official – this situation potentially limits
                    communication and sharing of purchase documentation between cardholders and
                    approving officials.




          4
           A program coordinator informed us that the agency sets single-purchase limits at $1 when cardholders fail
to properly comply with requirements governing the IMPAC purchase card. This limit effectively prevents the
cardholders from using the cards until matters have been resolved.

IMPAC: Review of 2001 Transactions                             11                                                 OEI-07-02-00510
Cardholder and Approving Official Actions Demonstrate a
Lack of Understanding of Agency Procedures and the Need
for Updated and Enhanced Training

          According to the IMPAC procedure manuals for all nine agencies, training is required for
          cardholders and approving officials. Seven agencies specifically require completion of training
          before a card is issued. Nonetheless, our findings show cardholders and approving officials
          lack an understanding of IMPAC procedures.

          In addition to previously identified failures to obtain or maintain evidence of approving official
          review, retain sufficient purchase documentation, and/or properly record the object class code,
          we offer the following examples from our random sample of 400 transactions where
          cardholders and approving officials are not properly following procedures:

          •	        31 percent of cardholders produced their cards from their personal wallets, despite the
                    HHS guidelines, which recommend that cardholders keep cards in locked locations
                    when not in use, and 1 cardholder could not find his card;

          •	        23 percent of cardholders had not signed their cards, increasing the ease with which
                    another person could use the card if lost or stolen; and

          •	        1 office maintained a listing of card numbers in an electronic file so that any cardholder
                    in the office could use any other card if he or she reached the 30-day limit on his/her
                    card, and one cardholder had given the card to another individual, despite the HHS
                    guidelines and agency procedures that specifically prohibit use of a card by anyone
                    other than the authorized cardholder.

          Potentially compounding this lack of understanding is the fact that procedure manuals for two
          agencies are currently in draft status. During the on-site visits, approving officials and
          cardholders for one of the agencies told us that their agency had never released a final
          procedures manual, while the other agency recently updated procedures to reflect changes in
          transaction review and approval.




IMPAC: Review of 2001 Transactions                      12                                         OEI-07-02-00510
                               CONCLUSION AND
                              RECOMMENDATIONS

          The IMPAC card purchase program was intended to save the government money by reducing
          the burden of completing excessive paperwork and to expedite the process of making
          purchases. We did not identify any transactions that, based on the documentation we were
          able to obtain, clearly indicated misuse on the part of cardholders and approving officials, or
          purchases converted to personal use. In addition, where controls exist, they appear to provide
          protection against abuse, if properly followed. Yet 44 percent of transactions had no evidence
          of approving official review, insufficient purchase documentation, and/or no recorded object
          class code. We recognize that, for efficient operation of the IMPAC program, some situations
          (e.g., lack of approving official and cardholder collocation) may be necessary. However,
          control weaknesses, such as unreasonable limits and a lack of specific controls, increase the
          risk of improprieties. Finally, although guidelines and procedures require cardholders and
          approving officials to receive training, questionable cardholder and approving official actions
          demonstrate a lack of understanding of agency procedures and the need for updated and
          enhanced training.

          As the IMPAC purchase card program continues to evolve, internal controls and procedures
          may fail to provide adequate protection against misuse. Therefore, we recommend that the
          Office of the Assistant Secretary for Administration and Management, working through agency
          program coordinators:

          •	        As soon as possible, ensure that agencies are in full compliance with the established
                    guidelines, including the following areas: (1) maintaining documents to support all
                    transactions, (2) closing unnecessary accounts, (3) establishing appropriate card limits,
                    (4) issuing final procedure manuals, and (5) maintaining physical security of the card.

          •	        Develop guidance specifically targeting: (1) location of cardholders and approving
                    officials, (2) role of approving officials and cardholders and the implications of those
                    roles being interchangeable, and (3) breadth of approving official span of control.

          •	        Provide periodic targeted training for cardholders and approving officials with particular
                    emphasis given to: (1) maintenance of supporting documentation,
                    (2) responsibilities of approving officials, (3) agency-specific card limits, and
                    (4) card security and designated authorized users.




IMPAC: Review of 2001 Transactions                      13                                         OEI-07-02-00510
                              AGENCY COMMENTS

          The draft of this report was reviewed by the Office of the Assistant Secretary for
          Administration and Management (ASAM). In its response, ASAM noted that it received input
          from the General Accounting Office and the Office of Management and Budget (OMB) that
          emphasized findings in our report. The ASAM noted that it will work with OMB to improve
          internal controls highlighted in our report.

          The ASAM did state that the OIG may have drawn an “incorrect inference from the vendor’s
          (US Bank) use of non-standard terminology.” More specifically, the OIG failed to note that
          “open” accounts reported lost or stolen do not create a risk because they have been
          deactivated. Although it is true that we did not identify purchases associated with the cards we
          identified as lost or stolen, we chose to include the information because we had requested a file
          of open accounts expecting to receive only open, active accounts. Instead we received a file
          containing large numbers of inactive accounts. We believe this could create difficulties in
          successfully managing the IMPAC program within HHS. Agency program coordinators, with
          whom we spoke, expressed frustration with their attempts to “clean up” their cardholder
          accounts, only to see accounts they attempted to get closed continue to show up on “open”
          account reports. We have revised the report to help clarify this point. The full text of ASAM’s
          comments can be found in Appendix D.




IMPAC: Review of 2001 Transactions                    14                                       OEI-07-02-00510
                                                                                    APPENDIX A


                          Confidence Intervals for Key Estimates

          We calculated confidence intervals for five key estimates. The estimates are given at 90
          percent confidence level.


                                       Point       Confidence              Point         Confidence
        Key Estimate                 Estimate–      Interval–           Estimate–         Interval–
                                      Percent        Percent          Dollar Amount     Dollar Amount

 Transactions which do
 not fully comply with                 43.503%            +/-6.439%    $126,655,676     +/-$19,770,302
 requirements

 Transactions which lack
 evidence of approving                 38.435%            +/-6.347%     $97,266,068     +/-$17,646,406
 official review

 Transactions which have
 insufficient purchase                  8.111%            +/-3.231%     $45,918,740     +/-$13,239,430
 documentation

 Transactions which lack a
 recorded object class                  6.543%            +/-3.267%     $21,762,200      +/-$9,796,178
 code




IMPAC: Review of 2001 Transactions                   15                                       OEI-07-02-00510
                                                                                    APPENDIX B


                            Matrix of Transactions with Problems


          One hundred sixty-six of 400 sampled transactions have one or more problems, as indicated in
          the table below.

                                     No evidence of      Insufficient       Lack of
                        Sample
                                       approving          purchase      recorded object
                        Number
                                     official review   documentation      class code
                            6               x
                            7               x
                            8               x
                            9               x
                           10               x
                           15               x
                           16               x
                           17               x
                           18               x
                           21               x
                           22                                x
                           27               x
                           32               x                x
                           34               x
                           35               x                x
                           39               x
                           40               x
                           41               x
                           42               x

                           44               x

                           52                                x

                           53                                x

                           54                                x

                           55               x

                           71               x

                           72                                x

                           73               x                x                 x

                           75               x

                           82               x                x

                           93               x                x                 x

                           96               x

                           97               x

                           98                                x

                           102              x

                           104              x                                  x

                           105              x                x                 x




IMPAC: Review of 2001 Transactions                     16                                  OEI-07-02-00510
                                     No evidence of      Insufficient       Lack of
                        Sample
                                       approving          purchase      recorded object
                        Number
                                     official review   documentation      class code
                           106                               x
                           108                               x
                           112              x
                           114              x                                  x
                           116              x
                           117              x
                           118              x                x                 x
                           119              x
                           123                               x
                           135              x
                           140                               x
                           141                               x
                           143              x
                           144              x
                           145              x                x                 x
                           150              x
                           151                               x
                           153                               x
                           155              x                x                 x
                           156              x                x
                           159              x                                  x

                           165                               x

                           167                               x

                           168                               x

                           170                               x

                           172                               x

                           175              x                x

                           179              x                                  x

                           180              x

                           181              x

                           184              x

                           186              x                x                 x

                           187              x                x

                           188                               x

                           189              x

                           190              x                x

                           191              x                x

                           192                               x

                           193              x

                           194              x

                           195              x                x

                           196              x                x

                           197                               x                 x
                           198                               x



IMPAC: Review of 2001 Transactions                     17                                 OEI-07-02-00510
                                     No evidence of      Insufficient       Lack of
                        Sample
                                       approving          purchase      recorded object
                        Number
                                     official review   documentation      class code
                           199                               x
                           201              x                x
                           202              x                x
                           203              x                x
                           204              x                x
                           206              x
                           207              x
                           208              x
                           210              x
                           211              x
                           215              x                                  x
                           217              x
                           218              x
                           222                               x
                           224                               x
                           225              x                                  x
                           226              x
                           227              x
                           228              x
                           229              x
                           230              x

                           231              x

                           232              x

                           233              x

                           234              x

                           235              x                                  x

                           240              x

                           241              x

                           245              x

                           248              x

                           252              x                x

                           253              x                x

                           255              x

                           256              x                x                 x

                           261                               x

                           263              x

                           264              x

                           265              x

                           266              x

                           267              x                x

                           268              x

                           269              x

                           270              x
                           271              x



IMPAC: Review of 2001 Transactions                     18                                 OEI-07-02-00510
                                     No evidence of      Insufficient       Lack of
                        Sample
                                       approving          purchase      recorded object
                        Number
                                     official review   documentation      class code
                           277              x
                           278                               x
                           281                                                 x
                           282              x                                  x
                           284              x                                  x
                           285              x                                  x
                           288              x
                           289              x
                           290              x
                           291                               x
                           292              x                x                 x
                           293              x                                  x
                           294              x                x                 x
                           295              x                                  x
                           296              x                                  x
                           300              x                                  x
                           308              x
                           313                                                 x
                           322                               x
                           325                                                 x
                           327              x

                           329                               x

                           330                               x

                           331              x

                           338              x

                           339              x

                           347              x

                           350              x

                           351              x

                           357              x

                           368              x

                           370              x

                           374                               x

                           375              x

                           379                               x

                           380                               x

                           381                               x

                           382                               x

                           384                               x

                           393                               x

                           395              x

                           397              x

                     Totals *             125               65                28
                    * 166 transactions


IMPAC: Review of 2001 Transactions                     19                                 OEI-07-02-00510
                                                                                     APPENDIX C



                          Overview of Guidelines and Procedures


          The following is an overview of guidelines and procedures governing IMPAC card usage,
          corresponding to areas reviewed in the body of the report. For each section, we provide the
          HHS guideline, if appropriate, and offer examples drawn from one or more of the agency
          procedures to illustrate how agencies have implemented or added to the HHS guideline or how
          agencies have addressed the need for a given internal control. We did make some minor
          revisions to the guidelines and procedures presented below to aid in readability and flow,
          although we did preserve the emphasis that the HHS or agencies added.


Overall, from the HHS:

          These guidelines apply to all components of the HHS. Each operating component must
          develop written internal operating procedures regarding the use of cards. These procedures
          should detail the internal controls and processing steps that the operating component will follow
          in implementing this program.

Approving Official Review:

From the HHS:

          After verification by the cardholders and approving official, the Statements of Account are sent
          to the serving finance office.

From the agencies:

          The cardholder must register their transactions during the billing cycle in the automated
          Managing/Accounting Credit Card System (MACCS), ensuring that the object class code and
          Common Accounting Number (CAN) for the purchases are included in the data. The
          transaction is forwarded to the approving officials for his/her approval. When the approving
          official approves the transaction, the process status changes from “Registered” to “Approved”.

          The cardholder must document certain information on the statement of account and attach all
          supporting documentation, such as charge slips, packing slips, and purchase log, and forward
          the signed statement to the approving official. After signing the statement of account, approving
          officials will return a signed copy along with back-up documentation to the cardholder to be
          maintained as part of their monthly purchase file.




IMPAC: Review of 2001 Transactions                   20                                        OEI-07-02-00510
          Approving officials monitor the proper use of the purchase card by cardholders assigned to
          them. Approving officials are responsible for reviewing their monthly cardholders’ statements
          and verifying that all transactions are for necessary government purchases in accordance with
          regulations and agency manuals. Approving officials shall:

          •         Ensure that established limits are not exceeded;
          •         Ensure that cardholders receive training;
          •	        Receive, review, and reconcile the bank’s monthly billing statement against the
                    cardholders’ statements of account, ensuring that receipts and documentation are in
                    order;
          •         Certify the monthly bill statement for payment processing;
          •	        File and maintain the cardholders’ original statements of account, receipts, and charge
                    slips, along with copies of the monthly billing statements for 6 years and 3 months.

Purchase Documentation:

From the HHS:

          A paper trail must be maintained that will support all purchases and be available to anyone
          auditing this process. At a minimum, this paper trail must include an identification of the items
          bought, who requested the items, date of purchase, amount of purchase, vendor, and funds
          charged.

          It is the responsibility of each individual card holder to keep copies of each charge slip and to
          quickly reconcile each monthly statement and forward the information on to the approving
          official.

From the agencies:

          All charge slips and other documentation (including cash register receipts, packing slips,
          “Cardholder’s Statement of Questioned Items” forms – if necessary) should be retained in a
          permanent file and will be required for submission to the Administrative Office when the
          cardholder accounts are audited. If no documentation is available, the cardholder should
          indicate the word “lost” under the date of purchase on the purchase log and attach a written
          explanation. Check to see if duplicate copies can be obtained from the merchant.

          Attach all documentation (e.g., charge slips, packing slips, and any Cardholder’s Statement of
          Questioned Item – CSQI – forms) to the log, sign and date the log, and retain in the
          cardholder’s file.

          Any time a purchase is made, whether it is done over the counter or by telephone, a monthly
          cumulative purchase log must be annotated and retained in the purchase file. Each cardholder
          must set up a purchase file for all proof of purchase documents associated with purchase card
          orders.

IMPAC: Review of 2001 Transactions                     21                                        OEI-07-02-00510
Recording of Object Class Code:

From the HHS:

          The individual card holder must write the CAN and object class on the Statement of Account
          as appropriate, and the approving official must also verify this information.

From the agencies:

          The cardholder must register their transactions/purchases during the billing cycle in the MACCS
          automated system, ensuring that the object class code and CAN number for the purchases are
          included in the data. The transaction is forwarded to the approving officials for his/her
          approval.

          Accounting needs the cardholders to list on the monthly statement the 4 digit object class code
          for each item purchased. This information is needed to report to the Office of Management and
          Budget on how the HHS appropriations are spent.

Closing Accounts:

From the HHS:

          Since the cards are issued to individual employees, they must be destroyed when the
          cardholder leaves the organization. The contracting officer who delegated authority and
          distributed the cards has the primary responsibility for recovering the cards from terminating
          employees and for following instructions for card termination issued by the contractor (U.S.
          Bank).

From an agency:

          If cards need to be canceled, the cardholder must turn the card in to the approving official, who
          must notify the administrative officer and return the purchase card (cut in half).

Card Activity:

From the HHS:

          The HHS guidelines do not specifically reference this issue, although recent scrutiny of the
          purchase card program has brought attention to the number of “open” accounts across
          government.




IMPAC: Review of 2001 Transactions                    22                                        OEI-07-02-00510
Card Limits:

From the HHS:

          For those cardholders who have not previously exercised procurement authority, the dollar
          limits for card use should be set in relation to the bona fide purchasing needs of the office
          involved, consistent with sound management and oversight. These limits should be set as
          realistically as possible and the monthly purchase limit . . . should be tied into the budget and
          operating plan.

From the agencies:

          An email is sent to request that a card be issued to the named cardholder (with the appropriate
          approving official’s name, title, and organization), which indicates the monthly and single-
          purchase limits desired. The standard single-purchase dollar limit is $2,500.

          Each purchase card is subject to a single-purchase limit, a billing cycle limit, and a billing cycle
          office limit. Neither cardholders nor merchants are allowed to exceed single-purchase limit or
          split the purchase in order to accommodate the purchase card limit.

          When a card is presented for purchase, and the merchant slides it through the electronic
          verification machine (or telephonically requests approval), the limits are compared against the
          proposed purchase and the transaction will not be approved if either limit is exceeded.

Cardholder and Approving Official Relationships:

From the HHS:

          The HHS guidelines do not specifically reference this issue.

Approving Official Span of Control:

From the HHS:

          The HHS guidelines do not specifically reference this issue, although an official with
          responsibility for the purchase card program noted that it is “assumed” a supervisor will be the
          approving official for any employees whom he or she supervises, with the result that an
          approving official would not have a larger span of control than a typical supervisor.

From an agency:

          The recommended ratio of cardholders to approving official is 5 to 1. Under certain rare and
          extenuating circumstances, up to 10 cardholders per approving official may be


IMPAC: Review of 2001 Transactions                     23                                          OEI-07-02-00510
          allowed. The monthly transaction volume of the cardholder will be taken into consideration.

Location of Approving Official and Cardholder:

From the HHS:

          The HHS guidelines do not specifically reference this issue.

Training:

From the HHS:

          All cardholders who have not previously held a warrant for procurement authority must be
          provided training by the issuing agency, preferably before the card is issued, but in any case
          within 6 months of issuance. The training must cover, as a minimum, the following topics:

          •	        Required sources of supply, including Federal Prison Industries, blind and handicapped
                    workshops, mandatory General Services Administration schedules and printing
                    services.

          •	        Applicable requirements of the Federal Acquisition Regulation Section 13, including
                    small business set asides, thresholds for competition, price reasonableness, and rotation
                    of sources.

          •	        Allowable and non-allowable purchases, as determined by statute, regulation, and
                    Comptroller General decision.

          •	        Requirements for payment of monthly statements, such as: identifying each item
                    purchased, indicating object class and fiscal data for each item, and noting credits not
                    shown.

          Approving officials should make sure all prospective cardholders fully understand all policies
          and procedures regarding card usage and have signed a statement to this effect before they
          receive a card.

From the agencies:

          Prospective cardholders and approving officials must attend a training course or review the

          U.S. Bank Purchasing Program videotape and complete certifications (as required) prior to

          their account set up forms being submitted to U.S. Bank. The cardholder and approving official

          will sign a statement that he/she has been fully trained and understands all policies and

          procedures regarding the card usage prior to receiving a card.





IMPAC: Review of 2001 Transactions                      24                                        OEI-07-02-00510
          All purchase card users must receive their cards and their authorization to use them from an
          agency contracting officer, via a letter of limited procurement authority. Training is also
          required.

Safeguarding Cards:

From the HHS:

          The card is for official use only! The cardholder is responsible for the security of the card and
          can be personally liable for its misuse. Cardholders should take precautions to prevent others
          from gaining access to their cards and should not give out their card number, since this could
          lead to misuse and personal liability. It is recommended that cardholders keep their cards
          locked up when not in use.

From the agencies:

          The cardholder is the only person authorized to use his/her purchase card, is responsible for the
          security of the purchase card, should not give anyone their card number, and can be personally
          liable for its misuse. It is recommended that the card be kept in a locked cabinet when not in
          use.

          Use of IMPAC by a cardholder for a personal purchase and/or a purchase of supplies or
          services which the cardholder had no authority to make, and/or use of the card by a person
          other than the cardholder, is unauthorized.

          No member of the cardholder’s staff, the cardholder’s supervisor, or anyone else may use the
          card.

Splitting Purchases:

From the HHS:

          The HHS guidelines do not specifically reference this issue, although all agency procedures
          address split purchases.

From the agencies:

          The cardholder cannot split orders to stay within the dollar limitations.

          The temptation may arise to break up a $2,800 acquisition into one $2,500 purchase and one
          $300 purchase, so that the purchase card may be used. This proposed action would be wrong
          and not in the best interest of the government.




IMPAC: Review of 2001 Transactions                     25                                       OEI-07-02-00510
                            ACKNOWLEDGMENTS

This report was prepared under the direction of Brian T. Pattison, Regional Inspector General for
Evaluation and Inspections in the Kansas City Regional Office. Other principal Office of Evaluation
and Inspections staff who contributed include:

Tricia Fields, Project Leader                         Elise Stein, Director,
Mike Craig, Program Analyst                                   Public Health and Human Services Branch
                                                      Linda L. Hall, Program Specialist
                                                      Barbara R. Tedesco, Mathematical Statistician

We would like to acknowledge the following OIG staff for their assistance in this project:

Michael P. Barrett, OEI, Region VII
                  Stephanie Lattin, OEI, Headquarters

Erin Bliss, OEI, Region V
                            Kevin Lawrence, OEI, Region IV

Diana S. Clark, OEI, Region VII
                      Alan S. Levine, OEI, Headquarters

A. Blaine Collins, OEI, Region VI
                    William C. Moran, OEI, Region V

Jason Coopey, OI, Region III
                         Genevieve Nowolinski, OEI, Headquarters

Carnitta DeVaughn, OEI, Headquarters
                 Elander J. Phillips, OEI, Region VII

Tanaz Dutia, OEI, Region III
                         Joan Richardson, OEI, Headquarters

Linda A. Frisch, OEI, Headquarters
                   Brian P. Ritchie, OEI, Headquarters

Paul A. Gottlober, OEI, Region IX
                    Bambi Straw, OEI, Headquarters

Michael Grasso, OI, Region VII
                       Dennis J. Tharp, OEI, Region VII

Erin Guay, OEI, Region V
                             Joe Townsel, OEI, Region IV

Norman Han, OEI, Region I
                            Lisa Vasquez, OEI, Headquarters

Steven Hanson, OI, Region VII
                        Brian T. Whitley, OEI, Region VII

Michael Henry, OEI, Region IX
                        Steven Zerebecki, OEI, Region IX

Scott Horning, OEI, Headquarters
                     Thomas Zimmermann, OEI, Region II





                              For information or copies of this report, please contact

                                        the Office of Inspector General’s

                                     Public Affairs office at (202) 619-1343.


               Reports are also available on the World Wide Web at our home page address:

                                          http://www.oig.hhs.gov/

IMPAC: Review of 2001 Transactions                       27                                  OEI-07-02-00510
